Peace Corps
Office of Inspector General




    Peace Corps office in Conakry




           Flag of Guinea




   Final Audit Report:
   Peace Corps/Guinea
                                    March 2009
   Final Audit Report:
   Peace Corps/Guinea
       IG-09-09-A




____________________________________
          Gerald P. Montoya
Assistant Inspector General for Audits




            March 2009
                           EXECUTIVE SUMMARY

We found that several functions of Peace Corps/Guinea’s financial and administrative
operations were not in compliance with agency policy and/or federal regulations, and
internal control over certain operations was not effective. However, we found no
reportable conditions in the areas of the post’s imprest fund verification, grants and
contributions, and travel. The more significant findings are summarized below.

Allowances
The post did not document the conduct of independent market basket surveys for
Volunteer settling-in allowances. In addition, the post could not provide support for
travel allowances. Deposits and disbursements made to a “package fund” used to pay
customs fees for personal packages sent to Volunteers from outside the host country were
not always tracked and some funds were unaccounted for. Also, specific guidance for
managing the process for reimbursing the agency for Volunteer package fees has not
been addressed by Peace Corps.

Billings and Collections
Billings were not collected on a timely basis.

Imprest Fund
Sub-cashier funds were not periodically verified and personal services contractors were
designated as sub-cashiers in violation of Peace Corps policy.

Property Management
Separation of duties between those who maintained the inventory records and performed
the physical inventory did not exist. Also, property inventory records were not properly
maintained.

Medical Supplies
Separation of duties between those who maintained the inventory records and performed
the physical inventory did not exist. Also, the supplies inventory record was not
accurate.

Purchase Card
Purchases made with the post’s purchase card were not approved by the approving
official before they were made.

The section “Post Staffing” includes a brief synopsis of comments from post staff
interviewed during our audit.

Our report contains 41 recommendations, which, if implemented, should strengthen
internal controls and correct the deficiencies detailed in the accompanying report.



Final Audit Report: Peace Corps/Guinea                                                     i
                                                             Table of Contents
EXECUTIVE SUMMARY ................................................................................................. i

INTRODUCTION .............................................................................................................. 1

AUDIT RESULTS.............................................................................................................. 1
A. ACCOUNTING FOR OBLIGATIONS AND LIQUIDATIONS................................................................................ 2

B. VOLUNTEER ALLOWANCES ........................................................................................................................ 3

C. BILLINGS AND COLLECTIONS ..................................................................................................................... 7

D. HOST COUNTRY CONTRIBUTIONS .............................................................................................................. 9

E. IMPREST FUND ........................................................................................................................................... 9

F. PROPERTY MANAGEMENT ........................................................................................................................ 13

G. MEDICAL SUPPLIES .................................................................................................................................. 15

H. VEHICLE MANAGEMENT .......................................................................................................................... 17

I. PURCHASE CARD ....................................................................................................................................... 18

J. TIMEKEEPING ............................................................................................................................................ 18

K. COMMUNICATIONS .................................................................................................................................. 20

L. INTERNATIONAL COOPERATIVE ADMINISTRATIVE SUPPORT SERVICES (ICASS)..................................... 21

M. SAFEKEEPING OF VOLUNTEER PROPERTY ............................................................................................... 22

N. PERSONAL SERVICES CONTRACTS ........................................................................................................... 23

O. NON-PERSONAL SERVICES CONTRACTS .................................................................................................. 26

P. LEASES ..................................................................................................................................................... 28

QUESTIONED COSTS AND FUNDS PUT TO BETTER USE .................................... 31

POST STAFFING............................................................................................................. 32

LIST OF RECOMMENDATIONS .................................................................................. 33

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY

APPENDIX B: MANAGEMENT'S RESPONSE

APPENDIX C: OIG COMMENTS

APPENDIX D: AUDIT COMPLETION AND OIG CONTACT
                                 INTRODUCTION

The Office of Inspector General conducted an audit of Peace Corps/Guinea October
8 – 29, 2008.

The Peace Corps began its program in Guinea in 1962. Volunteers were evacuated in
early 2007 due to civil unrest. Volunteers began to return to Guinea in late 2007. At the
time of our visit, 65 Volunteers were working in the areas of Public Health, Small
Enterprise Development, Education and Agro-forestry. The country director and
administrative officer arrived at the post in June 2008 and March 2008, respectively.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations were functioning effectively and complying with Peace Corps
policies and federal regulations. Appendix A provides a full description of our audit
objective, scope, and methodology.


                                 AUDIT RESULTS

Our audit disclosed that the post’s compliance with Peace Corps policies and federal
regulations in certain areas required improvement and internal control over some
operations was not effective. However, we found no reportable conditions in the areas of
the post’s imprest fund verification, grants and contributions, and travel.

Administrative Operations
The cashier did not personally set the combination to her safe annually. Billings were not
collected on a timely basis.

Internal Controls
The post lacked separation of duties between maintaining inventory and conducting the
inventory count. In addition, purchases made with the post’s purchase card were not
approved by the country director before they were made.

Volunteer Support
There was no assurance that the Volunteer settling-in allowance was adequate because
the required surveys were not documented. Contrary to Peace Corps policy, the post held
Volunteer no-fee passports. In addition, deposits and disbursements made to Volunteer
“package funds,” i.e., cash held by the post for payment of local post office fees, were not
tracked and some funds were unaccounted for. Also, specific guidance for handling
package fees has not been issued by Peace Corps.




Final Audit Report: Peace Corps/Guinea                                                      1
A. ACCOUNTING FOR OBLIGATIONS AND LIQUIDATIONS

1. The administrative unit did not maintain supporting documentation for some
   obligations.

OFMH section 32.3 states:
       Documents used for obligation[s] include contracts, leases, purchase
       orders, and travel authorizations. Whenever the PC-2060 is used as the
       obligating document, relevant supporting documentation should be
       attached.

Three of ten obligations reviewed, totaling $3,123, did not have supporting
documentation attached for the obligated amounts, such as quotations, pro-forma
invoices, or written documentation of the post’s estimations.

Supporting documentation is essential to maintaining a clear and traceable audit trail that
enables determining whether the obligated amounts are reasonable and in accordance
with federal and Peace Corps policy and the post’s Operations Plan.


               We recommend:

               A.1.1 That the administrative officer ensure that all
                     obligations, de-obligations, and similar transactions
                     are fully supported by relevant documentation,
                     including calculations, written explanations,
                     quotations, and other support.


2. Obligations were not recorded until after expenses were incurred.

Overseas Financial Management Handbook (OFMH) section 32.3 states:
       An obligation is a firm reservation of funds that creates a legal liability on
       the Government for the payment of goods or services ordered. In general
       terms, the obligation must indicate the requirement (goods/services/other),
       the vendor, and the cost and be authorized by staff with delegated
       procurement authority. For accounting purposes, the term "obligation"
       includes goods and services that have been ordered, but which may or may
       not have been received. The obligation is made using funds available at
       the time the order is placed or contract executed, even though payment
       may take place in a future fiscal year. Documents used for obligation
       include contracts, leases, purchase orders, and travel authorizations.




Final Audit Report: Peace Corps/Guinea                                                    2
Peace Corps Manual (PCM) section 753.4.1 states:
       The controls at a post must be adequate to assure that neither over
       obligations nor over expenditures occur within limitations placed on line
       items and on the overall amounts available in sections [of] the budget in
       total (see MS 704, "Administrative Control of Funds").

We determined that funds were not obligated for three of ten obligations reviewed until
after invoices for the goods or services were received.

The post is not authorized to execute procurements without first ensuring that sufficient
funds are available to cover associated costs. If it is determined that funds are available,
the post must make an accounting entry obligating funds to cover related costs prior to
executing the procurement. A lack of sufficient funding to pay for goods and/or services
received and accepted could result in a violation of the Anti-Deficiency Act.


                We recommend:

               A.2.1 That the administrative officer record an obligation
                     in the financial reporting system prior to executing a
                     procurement.


B. VOLUNTEER ALLOWANCES

1. The post did not document the conduct of Volunteer settling-in allowance surveys.

At the completion of pre-service training, newly assigned Volunteers are given a settling-
in allowance to provide for their needs when arriving at their sites. PCM section 221.3.1
states that the allowance is for the purchase of “necessary housing supplies and
equipment.”

To verify that the amount of the allowance is adequate, PCM section 221.4.2 requires that
the post conduct Volunteer settling-in allowance surveys for each incoming group of
Volunteers. The analysis based on the settling-in allowance surveys assists the post in
determining whether the settling-in allowance amount is adequate.

The prior administrative officer mentioned in email correspondence that settling-in
surveys were conducted in recent years. However, no documentation of surveys
distributed, received, or analyzed was kept by the post.

Because the post did not maintain documentation regarding settling-in allowance surveys,
there was no evidence that they were conducted for each new group of Volunteers. As a
result, we could not determine whether the amount of the Volunteer settling-in allowance
was adequate because there was no documented basis for the post’s determination of the
amount.


Final Audit Report: Peace Corps/Guinea                                                     3
               We recommend:

               B.1.1 That the administrative officer document the
                     conduct of Volunteer settling-in allowance surveys
                     and related analyses for each new training group,
                     and ensure that this information be maintained on
                     file.


2. Independent market basket surveys related to the settling-in allowance were not
   conducted.

To verify the adequacy of the settling-in allowance, posts are required by PCM section
221.4.2 to “conduct an independent price survey, which gathers data from Peace Corps
staff, host country representatives, available host country statistics, and information from
the Volunteer Survey. The independent survey may consist of spot checks of prices of
items, but it must be comprehensive enough to provide verification of price trends and
support the analysis of the Volunteer Survey.”

Independent market basket surveys related to the settling-in allowance were not being
conducted. The administrative officer informed us that she was unaware that
independent market basket surveys for the settling-in allowance were required, and that
she believed that the market basket survey for the living allowance provided the same
information.

It is important that the post perform and analyze results from an independent market
basket survey as well as the Volunteer settling-in allowance survey. The items purchased
with the settling-in allowance are intended for meeting immediate living arrangement
needs, such as furniture and cooking utensils, and differ from necessities bought
throughout service using the Volunteer living allowance.


               We recommend:

               B.2.1 That the administrative officer conduct independent
                     market basket surveys to verify cost data reported
                     in each settling-in allowance survey in accordance
                     with Peace Corps policy.


3. The administrative unit could not provide adequate supporting documentation for
   Volunteer travel allowances.

PCM section 221.5.7.1 states:
       At least annually, the post shall conduct a living allowance survey of the
       Volunteers…intended to help the Country Director determine the most


Final Audit Report: Peace Corps/Guinea                                                     4
           appropriate level of goods and services needed to ensure the health and
           effective service of Volunteers, and to determine if a different locality
           supplement is warranted for a particular site type or location. The living
           allowance survey must collect data for each of the base living allowance
           categories…

We reviewed a judgmental sample of seven Volunteer living allowance payments to
validate each of the allowance components.

The administrative unit informed us that Volunteers are given a travel allowance for two
round trips to the regional capital and one round trip to Conakry per quarter. The post
provided some related transportation cost data. However, using this data we were unable
to calculate the travel allowances for any of the seven payments reviewed or obtain an
adequate explanation for how the post set the Volunteer travel component.

Since data supporting the travel allowances was not adequately documented, the
allowances set by the post may not cover all associated expenses, or conversely, could be
set at an excessive level.


                   We recommend:

                   B.3.1 That the administrative officer adequately document
                         the justification for the determined amounts of the
                         travel allowance for all Volunteer sites.


4. The post did not follow agency policy regarding reimbursing the agency for
   personal debt incurred by Volunteers.

PCM section 221.5.10 states:
           Debts that the Volunteer owes Peace Corps for mailing packages, phone
           calls, etc. may be deducted from the living allowance. Deductions should
           be made to the next living allowance to be ordered and the Volunteer must
           be notified of the reason for the deduction. If the Volunteer is at the end
           of his/her service and no allowance payments remain, debts should be
           recovered using normal billing and collection procedures at Post.

The post’s receptionist was holding cash provided by Volunteers to pay customs fees
charged by the local post office for personal packages sent from outside of Guinea to
Volunteers. 1 We found that the post encouraged this practice of a pre-paid “package
fund.” Since there were no post offices outside of the capital, Peace Corps drivers picked
up the packages from the post office in the capital as a service to Volunteers.


1
    The custom fee was around Guinea Franc (GNF) 5,000 (approximately $1) per package.


Final Audit Report: Peace Corps/Guinea                                                   5
Approximately twice weekly, the receptionist gave drivers cash from this fund to pay the
assessed customs fees and pick up Volunteer packages.

We determined that the receptionist had not maintained a list of packages received since
April 2008, nor had she maintained all of the receipts for fees paid from the fund. In
addition, the receptionist informed us that she and other staff sometimes borrowed money
from the fund and made currency exchanges for personal use. These transactions were
not documented. According to the receptionist’s records, the total balance of Volunteer
funds should have been GNF 3,272,000 (approximately $675). However, the actual cash
on hand showed a shortage of GNF 623,906, or approximately $129.

Subsequent to completion of audit field work, we were informed by the administrative
officer that the receptionist reimbursed the fund shortage. We confirmed that the post
returned all outstanding package fund balances to Volunteers through deposits to their
bank accounts. The administrative officer indicated that the post planned to begin
deducting personal package fees from the subsequent living allowance deposit in
accordance with Peace Corps policies.

Peace Corps’ policy, as stated in PCM section 221.5.10, allows posts to provide such
services to Volunteers through deducting applicable amounts from the living allowance.
Use of this procedure eliminates the risks associated with cash transactions.


               We recommend:

               B.4.1 That the administrative unit deduct host country
                     customs fees paid for Volunteer personal packages
                     from Volunteer living allowances in accordance
                     with Peace Corps policy.


5. The Office of the Chief Financial Officer has not issued guidance for recording
   deductions from living allowances in the financial reporting system.

As discussed in paragraph 4. above, PCM section 221 provides authorization for making
deductions from the Volunteer living allowance for purposes of reimbursing the agency
for payment of certain personal costs made on behalf of Volunteers. However, we noted
that Peace Corps has not provided written guidance to posts regarding how to account for
such transactions within the posts’ financial reporting system (FOR Post).

Ensuring proper recording, including appropriate fiscal coding of such transactions
requires that Peace Corps provide applicable specific guidance. The guidance should
include how to record reimbursements to Peace Corps from Volunteer living allowances
in the agency’s financial reporting system.




Final Audit Report: Peace Corps/Guinea                                                   6
               We recommend:

               B.5.1 That the Office of the Chief Financial Officer issue
                     specific guidance to posts regarding how to account
                     for deductions from living allowances for
                     reimbursements to Peace Corps that is based on
                     appropriate accounting principles, including the
                     recording of all such transactions in the financial
                     reporting system.


C. BILLINGS AND COLLECTIONS

1. The post did not collect outstanding bills of collection (BOCs) on a timely basis.

PCM section 777.15.1 states:
       Aggressive action, on a timely basis with effective follow-up, shall be
       taken by the appropriate office heads or field officials to collect all claims
       of the United States for money or property arising out of Peace Corps
       activities or referred to it in accordance with the joint regulations (4 CFR
       101-103).

OFMH section 7.2.1 provides instruction for billings officers for handling outstanding
BOCs. OFMH section 7.3 specifies, “Payment is required within 30 days of receipt of
the billing document (issued by the Billing Officer).”

As of October 7, 2008, the post’s records indicated that there were six BOCs outstanding
more than 90 days, including one that had been outstanding for more than one year. The
six BOCs had a total value of GNF 346,800 (approximately $69). The outstanding BOCs
related to personal use of Peace Corps communications services by post staff. All six
were collected after post management followed up with the debtors.

The administrative officer had not taken an active role in enforcing the payment of
outstanding bills. However, in response to a similar use of resources, the post has made
an effort to encourage staff to clear interim cash advances within the required time
limit. This sends a mixed message to staff regarding the importance of personal
responsibility in maintaining integrity within post finances and not abusing Peace Corps’
resources.

It is important that responsible personnel perform aggressive follow up of outstanding
BOCs to maintain effective accountability over post finances.




Final Audit Report: Peace Corps/Guinea                                                   7
               We recommend:

               C.1.1 That the billing officer inform the administrative
                     officer of bills over 30 days outstanding and that the
                     administrative officer consistently follow up with
                     debtors to ensure that debts are promptly paid.


2. The post did not send Volunteer termination notifications in a timely manner.

OFMH section 16.5 requires that the post notify the office of Volunteer and PSC
Financial Services within 24 hours (one business day) of a Volunteer’s completion of
service (COS) or early termination (ET). A final readjustment allowance payment is
made to the Volunteer by check or electronic funds transfer within 3 - 6 weeks of the
Volunteer’s COS or ET date.

A review of 10 Volunteer termination notifications disclosed that eight were sent beyond
the 24-hour timeframe.

To ensure timely payment of final Volunteer readjustment allowances it is important that
the post send the termination notification (formerly known as COS or ET cable) to Peace
Corps headquarters within 24 hours of termination.


               We recommend:

               C.2.1 That the country director ensure that termination
                     cables are sent to PC/Washington within one
                     business day following the termination in
                     accordance with Peace Corps policy.




Final Audit Report: Peace Corps/Guinea                                                  8
D. HOST COUNTRY CONTRIBUTIONS

1. The valuation basis of the post's in-kind host country contributions was not
   documented.

According to PCM section 722.7.2.1:
       The recorded value of in-kind contributions shall be based on a rational
       estimate of the cost of the contributed supplies or services to the Peace
       Corps. The following are acceptable bases for making estimates:
       •   The actual cost to the Peace Corps of purchasing similar supplies or
           services in the same time period;
       •   The documented cost to other organizations (Embassy, USAID,
           PVO’s) of purchasing similar supplies or services in the same time
           period; and
       •   A survey of the local offering price for similar supplies or services.
           Such a survey may be made informally, but should be documented at
           the time.

Although the administrative officer could generally explain the basis on which the in-
kind contributions were valued by the prior administrative officer, this information was
not documented. As a result, the post had no supporting documentation for the valuations
that were presented in the Operations Plan.

Because the inclusion of host country contributions in the post’s Operations Plan reflects
all available resources used to operate the post, it is necessary to document the basis upon
which the post values the contributions.


               We recommend:

               D.1.1 That the administrative officer document, in a
                     memorandum to the host country contribution file,
                     the basis for valuation of in-kind host country
                     contributions as presented in the FY 2009
                     Operations Plan.


E. IMPREST FUND

1. The cashier did not change the safe’s combination at least annually.

PCM section 760.5.2 states:
       The combination [to the imprest fund safe] should be changed annually,
       whenever there is a change in cashiers, or whenever the combination
       becomes known to a person other than the cashier.


Final Audit Report: Peace Corps/Guinea                                                     9
The cashier informed us that until recently, the combinations to the cashier and alternate
cashier safes had not been changed in several years.

Although the imprest fund has been managed by the same cashier for several years,
changing the safe’s combination as required by Peace Corps policy reflects the
cashier's responsibility for maintaining effective internal control over the post’s imprest
cash.


               We recommend:

               E.1.1 That the cashier, in accordance with Peace Corps
                     policy, change the imprest fund safe’s combination
                     annually, when there is a change in cashiers, or
                     whenever the combination becomes known to a
                     person other than the cashier.


2. The cashier did not personally set the combination to the imprest fund safe.

PCM section 760.5.2 states:
       The cashier must personally set the combination to the safe. The security
       officer or technician is not authorized to set or know the combination of
       the safe. The cashier must memorize the lock combination for the safe…”

The U.S. Department of State Foreign Affairs Handbook 4 FAH-3 H-317.3-2 (which also
applies to Peace Corps) states:
       The lock combination is changed by the employee to whom the equipment
       is assigned… It is the responsibility of the resident regional security
       officer or the post security officer to instruct the responsible employee in
       the technique for changing the safe combination.

Both the Peace Corps’ and the Department of State’s above cited guidance are consistent
with U.S. Treasury policy. Contrary to this policy, the post relied on a local vendor to
change the cashier safe's combination because the cashier did not know how to change it.

The cashier, who has been with Peace Corps for eight years, was never taught how to
change the combination herself. She informed us that she asked the local vendor who
recently changed the combination to teach her how to do it but he refused, citing the
complexity of the safes and the tools required to change the combination.

In addition, no one in the Embassy Regional Security Office could change the
combination of these two safes. Peace Corps/Guinea has identified a local vendor,
recommended by a local bank, who has the ability to change the combinations and who
would be accessible to Peace Corps at any time that the combination would need to be


Final Audit Report: Peace Corps/Guinea                                                    10
changed. The administrative officer indicated that having a local vendor who was
capable and responsive to the post's needs was preferable to the cashier being taught how
to change the safe herself.

Because cashiers are responsible for security over the imprest fund, they must be able to
efficiently change the safe combination annually, in instances where the fund is
temporarily transferred to an alternate cashier, or whenever it is considered appropriate
and necessary.


               We recommend:

               E.2.1 That the country director ensure that the cashier
                     receive adequate training to reset the imprest fund
                     safe combination.


3. The cashier did not perform unannounced verifications of sub-cashier funds.

OFMH section 13, Exhibit C, A Guide to Sub Cashiers, states:
       The Principal Cashier will conduct unannounced verifications of the [sub
       cashier’s] fund on a monthly basis, if the amount of the advance is more
       than $1,000 or quarterly if the amount is less than $1,000. If the Principal
       Cashier is not available, the verification may be conducted by another
       person designated by the Country Director or by the Principal Cashier.

The cashier was not performing periodic verifications of the three regional sub-cashier
funds in accordance with Peace Corps policies. The cashier informed us that she has not
traveled to the regional centers and has therefore not performed any unannounced
verifications. Post management reasoned that due to the great distances between the post
and the three regional centers, it would not be practical for the cashier to visit each
location and perform the unannounced verifications monthly.

Unannounced verifications are an important part of the internal control structure over
cash flowing through the imprest fund. Further, although sub-cashiers are personally
liable for their advances, these advances are part of the principal cashier's accountability
and therefore it is the principal cashier that is responsible for ensuring that overall
cashiering operations are in accordance with policies.


               We recommend:

               E.3.1 That the cashier or other designate perform
                     unannounced sub-cashier verifications in
                     accordance with Peace Corps policy.




Final Audit Report: Peace Corps/Guinea                                                     11
4. Personal services contractors (PSCs) were designated as sub-cashiers.

OFMH section 13, Exhibit C, A Guide to Sub Cashiers, states:

       The designation as a sub-cashier must be approved by the Director,
       Accounts Receivables and Cash Management in Peace Corps
       Washington…Note: Post requesting the designation should remember that
       a sub-cashier must be a Direct Hire or a Peace Corps Volunteer. A
       contractor cannot be designated as a sub-cashier.”

Contrary to Peace Corps policy, three PSCs, who were assigned as regional coordinators
in separate remote locations within Guinea, held sub-cashier advances. Although the
PSCs were designated as sub-cashiers by the Director, Accounts Receivable and Cash
Management, the letter of request for designation from the post did not include the
contractual status of these staff members. The administrative officer informed us that
having PSCs as sub-cashiers was the best way for the post to maintain effective internal
controls while addressing their requirements for cash at the three remote locations.
Certain expenses at the regional centers, such as local guard salaries and utility bills,
cannot be paid centrally by the post. However, in this capacity a contractor would be
exercising procurement authority, an inherently governmental function.

Further, U.S. Treasury Department policy as implemented by the Department of State
and applicable to Peace Corps (4 FAH-3 H-392) indicates that “Contractors may not be
occasional money holders. The occasional money holder is an accountable officer.”
However, Peace Corps guidance issued by the Office of Acquisitions and Contract
Management instructs posts to include a statement in a PSC’s contract if he or she will
carry cash or allowances, i.e., be an occasional money holder.

The Director, Office of Global Accounts Payable, informed us that she had sought a
waiver from the Treasury Department to allow Peace Corps personal services contractors
to be occasional money holders. A response to Peace Corps’ request for a waiver is still
pending. Unless a specific exception is granted by the appropriate authority, Peace Corps
must consistently follow all federal and internal policies regarding management of its
cash resources.


               We recommend:

               E.4.1 That the Chief Financial Officer work with the U.S.
                     Treasury Department to find a solution to Peace
                     Corps' need to make cash payments away from the
                     Peace Corps overseas offices, given that most staff
                     are contractors.




Final Audit Report: Peace Corps/Guinea                                                    12
               E.4.2 That the Office of Acquisitions and Contract
                     Management remove all references from PSC
                     contract guidance regarding PSCs carrying cash or
                     allowances so that the conflicting guidance is
                     eliminated.


F. PROPERTY MANAGEMENT

1. The post did not maintain adequate separation of duties over management of the
   property inventory records and performance of the physical inventory verification.

PCM section 511.5.6 states that the property inventory physical count and verification
should be conducted by an individual other than the property officer.

We found that the general services officer (GSO) maintained the property inventory
records and also conducted the annual physical inventory verification. As a result, the
post lacked proper separation of duties in this area. The administrative officer
acknowledged that the post's practice was not in accordance with Peace Corps policy.
However, she believed that the staff’s limitations related to technical and language
skills prevented implementation of such separation of duties between the general services
staff members.

Effective internal control requires that the individual conducting the inventory count be
independent of the inventory management and recording process. This is important
because inventory verifications validate the accuracy of the Peace Corps property
inventory records.


               We recommend:

               F.1.1 That the administrative officer separate the duties of
                     maintaining the inventory records and conducting
                     the annual physical inventory count and
                     verification.


2. The post did not fully implement controls for assigning Peace Corps property to
   staff in accordance with agency policy.

PCM section 511.6.2 and the related Attachment A explain the process to be used when
issuing Peace Corps property to employees, contract staff, or Volunteers. Custody
receipts are required when releasing non-expendable property to Volunteers, staff, or
contractors.

The GSO and the information technology specialist were responsible for distributing
Peace Corps non-expendable highly pilferable property. We found that for some


Final Audit Report: Peace Corps/Guinea                                                      13
equipment such as loaner laptops, the post was maintaining appropriate inventory
tracking control. However, the post was not maintaining adequate controls over the
distribution of Peace Corps cell phones. Although the GSO did have a list of which staff
held Peace Corps cell phones, he could not verify that his list was complete. Also, staff
did not sign out the cell phones.

Because there was not a sufficiently documented chain of custody for Peace Corps
property, staff members who have returned property may be inappropriately held liable
for loss or damage. Additionally, staff members who have accepted custody of Peace
Corps property may not be held accountable.


               We recommend:

               F.2.1 That the country director ensure that the post follow
                     Peace Corps policy regarding implementation of
                     controls over the issuance of Peace Corps property
                     to Volunteers and staff.


3. The post did not maintain or verify inventory records in accordance with policy.

PCM section 511.5.5 states:
       The inventory is a reconciliation of the previous year's records against all
       acquisitions, transfers, disposals and other property changes that have
       occurred throughout the year. Four types of documents are used to record
       property transactions:
                  1.   Purchase Orders
                  2.   Receiving Reports
                  3.   Transfer Documents
                  4.   Disposal Documents

       Before beginning inventory, the Property Officer should check the
       property management records against written documentation of
       property/equipment changes to ensure that all changes have been entered
       in the property management database.

PCM section 511.5.6 states:

       Individuals other than the Property Officer check database property
       reports against physical inventory of property to confirm the existence of
       property listed on the inventory record.

The GSO did not reconcile the previous year's inventory records in accordance with
policy. Rather, upon performing an annual inventory count, he recreated new inventory


Final Audit Report: Peace Corps/Guinea                                                  14
listings based on inventory status at the end of the fiscal year. The GSO only compared
the actual status of inventory on the floor to his prior year's listing but did not verify the
existence of all items in the prior year's inventory listing. He also did not ensure that all
acquisitions and disposals of property were properly documented in the inventory listing.

In order to maintain effective internal control over inventory, the inventory listing must
be updated throughout the year. A lack of accurate and complete inventory records will
result in increased risks associated with pilferage and other losses of property.


                 We recommend:

                 F.3.1 That the administrative officer ensure that the
                       inventory listing is maintained throughout the year,
                       and that a complete inventory count be performed
                       annually in accordance with Peace Corps policy.


G. MEDICAL SUPPLIES

1. The post did not maintain adequate separation of duties over its medical supplies.

According to PCM section 734.2.1.6: 2

        The PCMO [Peace Corps Medical Officer] is responsible for establishing
        the accuracy of inventories… a general inventory of supplies must be
        taken at least every month by the Country Director or designee. The
        PCMO/ PCMC must inventory controlled medical substances monthly.

There was inadequate separation of duties between the staff members who were
responsible for storing, tracking, and disposing of inventory and those who performed the
periodic inventory counts. We found that the assistant PCMO was performing the
periodic medical supplies inventories. However, she was also responsible for storing
medical supplies, updating inventory tracking documents, creating the disposal listing,
and supervising disposal of medical supplies. The medical staff informed us that they
were unaware of the policy requirement to separate these duties.

The person responsible for performing periodic inventory verification must be
independent of the inventory receiving, distributing, storing, and recording processes.
Inventory verifications serve as an effective internal control in validating the accuracy of
the Peace Corps medical inventory records and minimizing risks related to pilferage or
other causes for inventory loss.


2
  PCM section 734 was updated subsequent to the audit; the quoted reference was applicable at the time of
the audit. The updated policy does not impact the status of any of the deficient conditions found. We have
ensured that the recommendations are consistent with the provisions included in the updated policy.


Final Audit Report: Peace Corps/Guinea                                                                 15
               We recommend:

               G.1.1 That in accordance with Peace Corps policy, the
                     country director designate staff from outside the
                     medical unit to conduct the monthly inventory
                     counts of medical supplies.


2. Medical inventory records were not accurately maintained.

PCM section 734.2.1.6 and Medical Technical Guideline 200.6 state: "The PCMO is
responsible for establishing the accuracy of inventories, maintaining appropriate controls,
and ensuring the proper usage of all medical supplies and equipment."

We performed a test count using a judgmental sample of 30 medical inventory items and
found 23 errors or inconsistencies:


        Number of Items                  Description of Deficiencies Found
                              Items were found to exist in the inventory but not on
                11
                              the inventory records.
                 3            Our physical count did not match inventory records.
                 5            Items were expired.
                              Items in inventory record comprised items with
                 4
                              different descriptors.


In addition, we attempted to verify the existence of some selected medical supply items
that were not included in the above sample. These items were listed on a separate
inventory listing entitled “Inventory of Filter Buckets.” We found that the post could not
account for all of the filter buckets listed and that the quantity of these items assigned to
off site locations was not documented.

Accurate and complete inventory records are critical to effective internal control over
government property and is required by Peace Corps policy.

It is important to note that PCM section 734 was updated following the conduct of our
audit. The revised policy separated some of the responsibilities in place at the time of our
audit. In the updated policy, the country director is responsible for designating:
       • A “Medical Supply Inventory Clerk” (MSIC) to maintain the official medical
         supply inventory records (PCM section 734.3.4).
       • Someone to perform the periodic inventory verification counts (PCM section
         734.3.5.3.b).


Final Audit Report: Peace Corps/Guinea                                                     16
PCM section 734 also provides that both the MSIC and the person performing the
inventory verification must not be assigned to the post’s medical unit. As a result of
these policy changes, we have directed recommendation G.2.1 to the country director
rather than the PCMO.


               We recommend:

               G.2.1 That the country director ensure that the medical
                     supply inventory records are updated and complete,
                     including making new entries to reflect similar
                     inventory items with different descriptive
                     identifiers.

               G.2.2 That the PCMO timely dispose of damaged and
                     expired items that are no longer useful in
                     accordance with Peace Corps policy.


H. VEHICLE MANAGEMENT

1. Staff did not review the daily vehicle usage logs.

PCM section 522.4.1.7 requires that the administrative officer review the daily
vehicle logs on a weekly basis and maintain the log for review by the country director on
a monthly basis.

Our audit disclosed that the administrative officer was not reviewing vehicle logs weekly,
and the country director was not reviewing vehicle logs at all.

The motor pool coordinator was responsible for collecting the vehicle logs and providing
them to the administrative officer. The coordinator informed us that although he was
aware of the weekly review requirement, he collected them only when they were full. As
a result, the administrative officer reviewed the logs every few weeks. The
administrative officer informed us that she was unaware of the requirement for monthly
country director approval.

Periodic and frequent review of the logs is essential to effective internal control in
ensuring that the post’s vehicles are being used appropriately and in accordance with
Peace Corps policy.




Final Audit Report: Peace Corps/Guinea                                                   17
               We recommend:

               H.1.1 That the administrative officer review vehicle logs
                     on a weekly basis and that the country director
                     review vehicle logs on a monthly basis in
                     accordance with Peace Corps policy.


I. PURCHASE CARD

1. Purchases made with the post’s purchase card were not approved before they were
   made.

OFMH section 45.4 requires that the approving official approve purchases before the
purchase card is used.

The administrative officer was the designated purchase cardholder and the country
director was the approving official. The administrative officer informed us that the
purchase card log was not filled out until after purchases were made. Instead, she sought
authorization from the approving official at the end of each statement period.

Supervisory approval prior to purchases being made with the card was not obtained.
Without adhering to the control requiring a pre-approval of all purchases made with the
purchase card, there is an increased risk that the purchase cardholder could misuse the
card. Further, purchases could be made that the country director may not have otherwise
approved.


               We recommend:

               I.1.1   That the cardholder acquire signature authorization
                       from the approving official before purchases are
                       made on the purchase card in accordance with
                       Peace Corps policy.


J. TIMEKEEPING

1. PC-57s were not reviewed by supervisors in accordance with Peace Corps policies.

PCM section 742.6.1 states:
       Each leave record (PC-57) shall be routinely reviewed for accuracy by the
       supervisor as of June 15th and December 15th of each leave year and
       audited by the timekeeper at the end of each leave year or upon an
       employee's termination or transfer.



Final Audit Report: Peace Corps/Guinea                                                 18
Supervisors were not reviewing PC-57s semiannually in accordance with Peace Corps
policies. Further, the PC-57s were not being printed out for supervisory signatures. The
timekeeper informed us that she printed out PC-57s for review only at a person's end of
service and was not aware of the policy requiring periodic supervisory review.

The required semiannual review is an effective internal control in providing supervisors
an opportunity to review all time sheets within each six-month period for accuracy. Also,
by confirming leave balances semiannually, the scope of employment termination leave
audits is minimized to the time period since the previous semiannual review.


               We recommend:

               J.1.1   That the country director and regional director
                       review PC-57s in accordance with agency policy.


2. PC-57s contained inaccuracies.

PCM section 742.8.0 states:
       If an employee transfers to another Peace Corps organizational unit within
       Peace Corps, his or her former office is responsible for forwarding the
       original audited and certified PC-57 to the new office. A copy of the
       certified PC-57 should be retained in the former office, with an additional
       copy being sent to M/FM/A/VSPS for control purposes.

PCM section 635.5.3.2.1 details the annual leave hours to be accrued, based on the length
of creditable federal service. PCM section 635.5.2.2 describes the accrual of sick leave.

The timekeeper informed us that she had not received documentation of accrued leave
balances when U.S. direct hires (USDHs) staff transferred to PC/Guinea from prior Peace
Corps assignments. As a result, the leave balances for the prior country director and the
current administrative officer were recorded as zero when they arrived at PC/Guinea.

In addition, the timekeeper was accruing annual leave for all USDHs at six hours per pay
period. The timekeeper informed us that she followed this practice because she was
unaware that there were three different leave earning categories based on time in federal
service. As a result, some USDHs may not have been accruing annual leave at the
appropriate rate.

After the audit, the timekeeper informed us that she had ensured that the three USDHs
presently assigned to the post were accruing at appropriate rates; however, she did not
verify accuracy of the rates used for those USDHs who had recently left post.

Our audit further disclosed a timekeeping problem related to the accumulation and use of
sick leave for PSCs. The PC-57s used to track PSC leave balances did not include sick


Final Audit Report: Peace Corps/Guinea                                                    19
leave balances, and the timekeeper did not employ an alternative system to track the
accumulation and use of PSC sick leave.

Having effective systems in place for accurately recording the accumulation and use of
personal leave is an essential part of the overall timekeeping internal control structure.
Since the timekeeper was not tracking PSC sick leave and actual leave balances for
USDH employees were not consistently confirmed, there is no assurance that leave
balances for personnel are accurate.


               We recommend:

               J.2.1   That the administrative officer obtain the actual
                       starting leave balances for USDHs transferred from
                       other Peace Corps posts timely.

               J.2.2   That the administrative officer ensure that correct
                       annual leave accrual rates are applied for purposes
                       of recording USDH accrued leave.

               J.2.3   That the administrative officer ensure that sick
                       leave balances are tracked for all personnel assigned
                       to the post, including PSCs.


K. COMMUNICATIONS

1. Personal phone charges were not billed in accordance with agency policy.

PCM section 834.4.2 states: “Country Directors have the discretion to set up a call
collection system for unauthorized calls if it is cost-effective to do so.”

The Director of the Office of Global Accounts Payable (OGAP) issued a clarification
email to all administrative officers on July 29, 2007 reminding them that “… agency
policy authorizes country directors to establish written, post-specific policy…which sets
a threshold for billing, based on a consideration of the costs incurred in the billing and
collection process – i.e., is it cost effective to bill for an amount less than ‘x’... we have
noticed that many, many collections are made – often for very small amounts – and are
wondering why.”

We found several examples where the post did not follow Peace Corps guidance
regarding billing of personal phone calls. The post's procedure for collecting information
on which calls were personal was inefficient and not well documented. Phone bills were
distributed to staff members so that they could either mark their personal calls or note
that no personal calls were made. However, there was no reliable system for ensuring
that all bills distributed were reviewed by staff and returned to the administrative unit.



Final Audit Report: Peace Corps/Guinea                                                       20
An administrative assistant used a tracking spreadsheet; however, her record of when the
phone bills were returned to her was incomplete. Although she informed us that some
staff would inform her that the bill did not include any personal calls, this information
was not documented. Staff members could only be billed when they returned the phone
bill to the administrative assistant with personal calls indicated. Since the tracking
spreadsheet was incomplete, we could not verify that all personal calls made were in fact
billed to staff members making such calls.

Our audit also disclosed that although OGAP guidance specifies that country directors
should establish billing thresholds in a post policy, none had been set for personal calls.

We reviewed the billing log and noted several bills created two or three months after the
calls were made and one bill for personal calls made seven months earlier. The billing
officer informed us that the bills for one of the cellular companies were always received
two months after the billing period. However, this does not account for all delayed
billings.

The purpose of the OGAP clarification to the policy regarding billing for personal calls is
to enable the country director to eliminate billing of small amounts so that the billing
process is more efficient and cost-effective. The desired result is that the billing officer
will reduce the number of BOCs issued without materially reducing the amount collected.


               We recommend:

               K.1.1 That the administrative officer coordinate phone
                     bills with the staff to identify personal calls made
                     and obtain timely responses in accordance with
                     Peace Corps policy.

               K.1.2 That the billing officer issue bills for personal calls
                     timely.

               K.1.3 That the country director set a minimum billing
                     amount for the personal use of phones that is cost
                     effective for billing purposes.


L. INTERNATIONAL COOPERATIVE ADMINISTRATIVE SUPPORT SERVICES (ICASS)

1. The post subscribed to services that were in addition to the approved standard
   services.

OFMH section 28.6.1 states:
       Under ICASS, customer agencies are required to subscribe to two
       services: Basic Package and Community Liaison Office (CLO). Beyond


Final Audit Report: Peace Corps/Guinea                                                    21
       these two, Peace Corps policy is that Posts may only subscribe to a
       specific list of services. Use of any service not authorized requires
       advance approval by the Chief Financial Officer (see section [28.10]
       waiver requests). The Office of Budget and Analysis reviews Post ICASS
       invoices. Any Post whose service selection does not conform to guidance
       is subject to having its operating budget reduced to cover the cost.

During FYs 2007 and 2008, PC/Guinea subscribed to some non-standard ICASS
services. These non-standard services included administrative supply, procurement,
travel (was not subscribed in FY 2008), and vouchering. The costs associated with these
services amounted to $14,216 for FY 2007, and $8,165 for FY 2008. However, waivers
to subscribe to the non-standard services were not sought from the Chief Financial
Officer (CFO), as required by Peace Corps policy.

The administrative officer informed us that she interpreted Peace Corps guidance to
indicate that these services were standard and therefore did not believe waivers were
required.

Peace Corps does not necessarily benefit from all available ICASS services because in
some cases certain essential services are provided for through internal sources, and other
available services are not needed. Therefore, it is important that Peace Corps only pay
for those services actually received and that subscribing to any non-standard services not
required by the Department of State be useful and cost-effective. Acceptable justification
must be presented to and approved by CFO for any proposed use of services not defined
as standard in the applicable Peace Corps policy.


               We recommend:

               L.1.1 That the post obtain waivers for the use of all non-
                     standard ICASS services subscribed to in
                     accordance with Peace Corps policy.


M. SAFEKEEPING OF VOLUNTEER PROPERTY

1. The post held Volunteer no-fee passports in violation of Peace Corps policy.

Interim Policy Statement 4-04 states:
       Peace Corps agrees with advice from the Department of State that, for
       Safety and Security reasons, all V/Ts should keep their No-Fee Passports
       and visas in their possession or at their sites.

       The new policy is intended to help prevent a V/T from being detained
       during an evacuation or routine check of proper paperwork because the
       V/T's passport and visa are not available...V/Ts are responsible for


Final Audit Report: Peace Corps/Guinea                                                  22
       safeguarding their No-Fee Passports and visas by keeping them in their
       possession or easily accessible in a safe place at their sites. Country
       Directors who are currently safeguarding V/T passports and visas at post
       shall promptly return the passports and visas to the V/Ts.

We determined that the country director, through delegation to the Volunteer property
safekeeper, was holding Volunteer no-fee passports at the post. In addition, the post’s
policy as stated in the PC/Guinea Volunteer Manual provides:
       During your service we prefer to keep your official passport in the safe at
       the Peace Corps office in Conakry to facilitate emergency travel and to
       allow us to keep up with visa renewals throughout your service. If you
       have one, please feel free to keep your personal passport with you at site.

Although the country director was not aware of the interim policy statement that no-fee
passports must be held by each Volunteer or Trainee, we learned that the administrative
officer was aware of the agency’s policy. The administrative officer reasoned that the
post’s practice of keeping the Volunteer/Trainee passports was justified because they
have determined that this is the best way to ensure that the passports can be located and
delivered to Volunteers/Trainees when necessary. The administrative officer believed
that the likelihood that Volunteers would have to cross a border during evacuation
without someone from the office being able to deliver their passports was minimal.

However, the post’s practice was inconsistent with Peace Corps policy and advice from
the Department of State.


               We recommend:

               M.1.1 That the country director promptly return no-fee
                     passports to Volunteers and Trainees in accordance
                     with Peace Corps policy.

               M.1.2 That the country director revise the PC/Guinea
                     Volunteer Manual regarding safekeeping of
                     Volunteer passports so that it is consistent with
                     Peace Corps and Department of State guidance.


N. PERSONAL SERVICES CONTRACTS

1. Some contracts included references to grade and step levels in violation of Peace
   Corps policy.

OFMH section 37.2.6 clarifies the separation of Peace Corps PSCs from those of the
Embassy by stating:



Final Audit Report: Peace Corps/Guinea                                                    23
       PSC contracts are not directly linked to Embassy Wage and Compensation
       plans, although such plans may be used as a guide to establish
       compensation ranges. However there should not be any language which
       ties the contract position to the FP or FSN pay plan, e.g., assignment of
       grades or steps, although relationships may be discussed informally as a
       basis for comparison."

Seven of the eight PSCs reviewed included references to grade and step levels, although
there was no direct mention of the local compensation plan (LCP).

Peace Corps contractors are not employees and are therefore not covered by the LCP.
Referring to grades or steps, even though the LCP itself may not be specifically
mentioned, implies that the contractor's compensation follows an established
compensation plan. Although Peace Corps posts should use the LCP as a guide for
setting salaries and benefits commensurate with contractors' duties, they must avoid
specifically referring to any part of it in PSC contracts.


               We recommend:

               N.1.1 That for future personal services contracts and
                     options, the administrative officer review contract
                     language prior to signing to ensure that there are no
                     references made to grades, steps, or the local
                     compensation plan.


2. PSC performance evaluations were not consistently completed in accordance with
   Peace Corps policy.

PCM section 743.19 states:

       It is U.S. Government policy that a PSC's performance be evaluated
       during and at the completion of each contract. … All PSCs will be
       evaluated by the country director, or another Peace Corps employee
       designated by the country director, during and at the completion of their
       in-country work. A copy of the evaluation should be maintained by the
       Country Director with copies forwarded to the Regional Training Officers
       or Programming and Training Advisors, Program Officers or Director of
       Medical Services, as appropriate depending upon the nature of the
       contracted services.

None of the eight PSC files selected for review included evidence that annual
evaluations were being consistently conducted. However, five of the eight contained at
least one evaluation. In addition to the eight PSC files, the PCMO's file did not contain
evidence of annual evaluations.



Final Audit Report: Peace Corps/Guinea                                                  24
Evaluations are an essential component in the process of evaluating PSC staff
performance and assisting in identifying developmental needs. As a result, such
evaluations should be consistently performed upon the completion of each contract
period and included in the PSC’s file.


               We recommend:

               N.2.1 That the country director or other designated
                     supervisor conduct annual performance appraisals
                     of all PSC staff members and that copies be
                     included in their files.


3. Some personal services contractor files did not contain documentation that the
   contracts were competitively awarded.

PCM section 743.9.2.1 states:
       …offers are to be requested from at least three potentially qualified
       candidates. If three qualified candidates cannot be identified without
       advertising, the contract must be advertised locally in accordance with
       Embassy/Post practice for direct-hire employees or PSCs (e.g.,
       Post/Embassy bulletin board or website, in a general circulation
       newspaper) or using some other method that would reasonably be
       expected to produce at least three potentially qualified candidates.

A review of eight PSC files disclosed that five files did not contain documentation
showing that the contracts were competitively awarded. Subsequently, the administrative
officer provided competition documentation related to one PSC file.

Without evidence of an appropriate competitive process, there is no assurance that a
contract was awarded in accordance with Peace Corps policy requiring fair and open
competition.


               We recommend:

               N.3.1 That the administrative officer maintain
                     documentation of competition in PSC files for all
                     future contracts.




Final Audit Report: Peace Corps/Guinea                                                 25
4. PSC files did not contain completed intelligence background information
   certification forms.

PCM section 743.8.1 states:
       Personal Services Contractors are subject to the policy and eligibility
       standards set forth in Peace Corps Manual Section 611 concerning
       eligibility of applicants with intelligence backgrounds. … Prospective
       PSCs are required to complete the Intelligence Background form provided
       as Attachment A to Manual Section 611, in addition to being certified
       through the appropriate security clearance process.

Four of the eight PSC files reviewed and the PCMO contract file did not contain
completed intelligence background information certification forms. During the audit,
three PSCs and the PCMO signed the form.

It is important for Peace Corps to obtain and maintain completed intelligence background
information certification forms for all PSCs because agency policy dictates that
individuals who have prior connections with intelligence activities through employment,
related work, or even family relations may be ineligible for a personal services contract.


               We recommend:

               N.4.1 That the country director ensure that all PSC staff
                     members have completed intelligence background
                     information certification forms in accordance with
                     Peace Corps policy, and that they be included in
                     their files.


O. NON-PERSONAL SERVICES CONTRACTS

1. The post did not have written interagency agreements in place.

PCM section 103.4.2 states:
       No funds may be used and no activities may be undertaken pursuant to an
       interagency agreement until the agreement has been approved and
       authorized as provided in this manual section.

PCM section 103.3.4 states:

       Interagency agreement means a written agreement between the Peace
       Corps and another federal agency for the performance of program
       activities or services, and/or the procurement, use, or transfer of
       commodities, property, personnel, or funds. The term interagency


Final Audit Report: Peace Corps/Guinea                                                 26
       agreement includes program agreements, fee-for-service agreements, or
       personnel detail agreements.

Our review of the post’s contracts disclosed that PC/Guinea had two informal, unwritten
interagency agreements with the Department of State for security guard service and PSC
health insurance management. The administrative officer informed us that she was aware
of the requirement for written interagency agreements but that she intended to research
options in procuring these services directly before executing any formal agreements.

Without written interagency agreements, Peace Corps' participation in services provided
by other agencies is informal and may not protect Peace Corps from risks associated with
group services, such as being subjected to sudden and unplanned changes in fees or
services. Further, use of such services is not authorized before final approval is granted
by Peace Corps management.


               We recommend:

               O.1.1 That the country director obtain approval and
                     authorization for interagency agreements for guard
                     and PSC health insurance management services in
                     accordance with Peace Corps policies, and that he
                     complete formal written interagency agreements as
                     required.


2. Required documentation was non-existent or insufficient, and in some cases, funds
   for contract costs were not fully obligated prior to their execution.

PCM section 732.6.3.6 states:
       Written quotations shall be required (except for emergency supplies and
       perishable subsistence) when the estimated dollar amount of the purchase
       exceeds $10,000.00... The determination that a proposed price is
       reasonable should be based on competitive quotations. If only one
       response is received, or the price variance between multiple responses
       reflects lack of adequate competition, a statement shall be included in the
       contract file giving the basis of the determination of fair and reasonable
       price.

OFMH section 32.3 states:
       … an obligation is a firm reservation of funds that creates a legal liability
       on the government for the payment of goods or services ordered… The
       obligation is made using funds available at the time the order is placed or
       contract executed, even though payment may take place in a future fiscal




Final Audit Report: Peace Corps/Guinea                                                  27
       year. Documents used for obligation include contracts, leases, purchase
       orders, and travel authorizations.

PCM section 753.4.1 states:
       The controls at Post must be adequate to assure that neither over
       obligations nor over expenditures occurs both within limitations placed on
       line items and on the overall amounts available in sections [of] the budget
       in total.

We reviewed a judgmental sample of four non-personal services contracts and noted that
the post did not fully comply with applicable Peace Corps policies as follows:
       •    The competition process was not documented for the sole contract greater
            than $10,000.
       •    In cases where it was unclear that the lowest-cost option was chosen, the basis
            for awards was not documented.
       •    Three of the four contracts were signed prior to funds being fully obligated in
            FORPost.

Adequate documentation of the competitive process is an important internal control in
minimizing the risk that contracts awarded are not the best overall value to the Peace
Corps. Also, the post should not execute personal services contracts without first
ensuring that funds are available. The lack of funding to cover costs associated with a
signed lease, contract, or purchase of goods and/or services could result in a violation of
the Anti-Deficiency Act.


               We recommend:

               O.2.1 That the administrative officer maintain all
                     necessary documents in the post’s contract files, as
                     required by Peace Corps policy.

               O.2.2 That the administrative officer obligate funds in
                     FORPost prior to executing and signing contracts.


P. LEASES

1. The post did not seek a waiver for leasing a residence with a functional swimming
   pool.

PCM section 515.3 states:
       Peace Corps employees may not live in residences with swimming pools
       or tennis courts, nor may they live in neighborhoods considered by the


Final Audit Report: Peace Corps/Guinea                                                    28
       local population to be "foreign compounds." Exceptions to this rule may
       be made only by the Regional Director. Exceptions should be based on
       recommendations from the Country Director and documentation from the
       Chief of Mission concerning the lack of adequate and secure housing in-
       country.

We observed that the country director's residence included a functional swimming pool.
Although the post had obtained a waiver for a non-functional swimming pool at that
residence over the period of the previous lease, it expired in March 2008. A new waiver
had not been obtained at the time the lease was renewed.

During the audit, the administrative officer sought and obtained a waiver for a functional
pool from the regional director. Since appropriate corrective action has been taken we
are not making any recommendations.

2. Lease files did not contain all required documentation.

OFMH section 30.5 states:
       Dollar or other hard currency payments may be made only if consistent
       with local law and with the prior (written) approval of the Chief of
       Mission and Director, Global Accounts Payable.

PCM section 733.4.2 states:
       Upon identifying property/space needs, a market survey shall be
       conducted to determine availability and price of property meeting those
       needs. Methods of conducting a market survey may include advertising in
       the local media or contacting rental agents.

The lease template, Attachment A to PCM section 733, contains a Certificate of
Acceptance, and must be used for all leases entered into by posts.

We reviewed a judgmental sample of five leases and found that several required
documents were not included in lease files:

       •   Authorization for U.S. dollar payments was not included for the four leases
           reviewed that were paid in U.S. dollars.
       •   None of the five lease files contained documentation that a market survey was
           conducted prior to awarding the lease.
       •   Certificates of Acceptance were not signed for three of the leases.

Also, the administrative officer informed us that it was her understanding that Certificates
of Acceptance were only required if the date of the lease differed from the actual date of
acceptance of the property. However, we did not find this exception in applicable Peace
Corps policy.



Final Audit Report: Peace Corps/Guinea                                                   29
Subsequent to our review of leases, a market survey for one lease was provided by the
administrative officer. In addition, during the audit the administrative officer obtained
Chief of Mission approval to pay all leases in U.S. dollars. Similar approval was
obtained from the Regional Director for Africa; however, policy requires that such
approval be obtained from the Director, Office of Global Accounts Payable.

In order to ensure the best use of Peace Corps funds, all appropriate approvals and
associated documentation must be obtained before leases are signed and included in the
lease files.


               We recommend:

               P.2.1 That the administrative officer maintain all required
                     information in current lease files, including updated
                     approvals and market surveys for renewed leases.




Final Audit Report: Peace Corps/Guinea                                                      30
                        QUESTIONED COSTS AND
                       FUNDS PUT TO BETTER USE
We identified certain questioned costs and funds to be put to better use during the course
of the audit. They are discussed in the accompanying audit report and enumerated below
along with the recommendation number in the report. (Amounts are in U.S. dollars or
U.S. dollar equivalents of Guinea Francs.)


                                  Questioned Costs
  Recommendation
                                             Description                        Amount
      number
                         Unapproved ICASS charges for FY 2007 and FY
         L.1.1                                                                   $22,381
                         2008


                              Funds Put to Better Use
  Recommendation
                                             Description                        Amount
      number
       A.1.1             Unsupported obligation amounts                          $3,123
       C.1.1             Long-outstanding BOCs                                      $69
      TOTAL                                                                      $3,192




Final Audit Report: Peace Corps/Guinea                                                  31
                                 POST STAFFING
At the time of our visit, the post had 38 staff positions: three U.S. direct hire employees,
one foreign service national, 31 host country personal services contractors, and three third
country personal services contractors.

We interviewed 6 staff, including two U.S. direct hires and the Peace Corps Medical
Contractor. They all informed us that they very much enjoyed working for the Peace
Corps.

                                 PC/Guinea’s Positions
                              Position                         Status
              Country Director                                 USDH
              Receptionist/Executive Secretary                  PSC
              Administrative Officer                           USDH
              APCD/SED, acting APCD/NRM                        USDH
              APCD/Health                                     TCN PSC
              APCD/ Education                                   PSC
              Regional Coordinators (3)                         PSC
              Program Secretary                                 PSC
              Financial Assistant                               PSC
              Administrative Assistant                          PSC
              Messenger/ Clerk/ Secretary                       PSC
              General Services Coordinator                      PSC
              Assistant General Services Coordinator            PSC
              Cashier                                           FSN
              IT Specialist                                     PSC
              Drivers (7)                                       PSC
              Upcountry Drivers (3)                             PSC
              Motor Pool Coordinator                            PSC
              Peace Corps Medical Officer                     TCN PSC
              Assistant PCMO                                  TCN PSC
              Medical Secretary                                 PSC
              Lab Technician                                    PSC
              Safety and Security Coordinator                   PSC
              Training Director                                 PSC
              Janitors (3)                                      PSC
              Gardener                                          PSC




Final Audit Report: Peace Corps/Guinea                                                   32
                      LIST OF RECOMMENDATIONS
WE RECOMMEND:

A.1.1 That the administrative officer ensure that all obligations, de-obligations, and
      similar transactions are fully supported by relevant documentation, including
      calculations, written explanations, quotations, and other support.

A.2.1 That the administrative officer record an obligation in the financial reporting
      system prior to executing a procurement.

B.1.1 That the administrative officer document the conduct of Volunteer settling-in
      allowance surveys and related analyses for each new training group, and ensure
      that this information be maintained on file.

B.2.1 That the administrative officer conduct independent market basket surveys to
      verify cost data reported in each settling-in allowance survey in accordance with
      Peace Corps policy.

B.3.1 That the administrative officer adequately document the justification for the
      determined amounts of the travel allowance for all Volunteer sites.

B.4.1 That the administrative unit deduct host country customs fees paid for Volunteer
      personal packages from Volunteer living allowances in accordance with Peace
      Corps policy.

B.5.1 That the Office of the Chief Financial Officer issue specific guidance to posts
      regarding how to account for deductions from living allowances for
      reimbursements to Peace Corps that is based on appropriate accounting principles,
      including the recording of all such transactions in the financial reporting system.

C.1.1 That the billing officer inform the administrative officer of bills over 30 days
      outstanding and that the administrative officer consistently follow up with debtors
      to ensure that debts are promptly paid.

C.2.1 That the country director ensure that termination cables are sent to
      PC/Washington within one business day following the termination in accordance
      with Peace Corps policy.

D.1.1 That the administrative officer document, in a memorandum to the host country
      contribution file, the basis for valuation of in-kind host country contributions as
      presented in the FY 2009 Operations Plan.




Final Audit Report: Peace Corps/Guinea                                                      33
E.1.1 That the cashier, in accordance with Peace Corps policy, change the imprest fund
      safe’s combination annually, when there is a change in cashiers, or whenever the
      combination becomes known to a person other than the cashier.

E.2.1 That the country director ensure that the cashier receive adequate training to reset
      the imprest fund safe combination.

E.3.1 That the cashier or other designate perform unannounced sub-cashier verifications
      in accordance with Peace Corps policy.

E.4.1 That the Chief Financial Officer work with the U.S. Treasury Department to find
      a solution to Peace Corps' need to make cash payments away from the Peace
      Corps overseas offices, given that most staff are contractors.

E.4.2 That the Office of Acquisitions and Contract Management remove all references
      from PSC contract guidance regarding PSCs carrying cash or allowances so that
      the conflicting guidance is eliminated.

F.1.1 That the administrative officer separate the duties of maintaining the inventory
      records and conducting the annual physical inventory count and verification.

F.2.1 That the country director ensure that the post follow Peace Corps policy regarding
      implementation of controls over the issuance of Peace Corps property to
      Volunteers and staff.

F.3.1 That the administrative officer ensure that the inventory listing is maintained
      throughout the year, and that a complete inventory count be performed annually
      in accordance with Peace Corps policy.

G.1.1 That in accordance with Peace Corps policy, the country director designate staff
      from outside the medical unit to conduct the monthly inventory counts of medical
      supplies.

G.2.1 That the country director ensure that the medical supply inventory records are
      updated and complete, including making new entries to reflect similar inventory
      items with different descriptive identifiers.

G.2.2 That the PCMO timely dispose of damaged and expired items that are no longer
      useful in accordance with Peace Corps policy.

H.1.1 That the administrative officer review vehicle logs on a weekly basis and that the
      country director review vehicle logs on a monthly basis in accordance with Peace
      Corps policy.

I.1.1   That the cardholder acquire signature authorization from the approving official
        before purchases are made on the purchase card in accordance with Peace Corps
        policy.


Final Audit Report: Peace Corps/Guinea                                                   34
J.1.1   That the country director and regional director review PC-57s in accordance with
        agency policy.

J.2.1   That the administrative officer obtain the actual starting leave balances for
        USDHs transferred from other Peace Corps posts timely.

J.2.2   That the administrative officer ensure that correct annual leave accrual rates are
        applied for purposes of recording USDH accrued leave.

J.2.3   That the administrative officer ensure that sick leave balances are tracked for all
        personnel assigned to the post, including PSCs.

K.1.1 That the administrative officer coordinate phone bills with the staff to identify
      personal calls made and obtain timely responses in accordance with Peace Corps
      policy.

K.1.2 That the billing officer issue bills for personal calls timely.

K.1.3 That the country director set a minimum billing amount for the personal use of
      phones that is cost effective for billing purposes.

L.1.1 That the post obtain waivers for the use of all non-standard ICASS services
      subscribed to in accordance with Peace Corps policy.

M.1.1 That the country director promptly return no-fee passports to Volunteers and
      Trainees in accordance with Peace Corps policy.

M.1.2 That the country director revise the PC/Guinea Volunteer Manual regarding
      safekeeping of Volunteer passports so that it is consistent with Peace Corps and
      Department of State guidance.

N.1.1 That for future personal services contracts and options, the administrative officer
      review contract language prior to signing to ensure that there are no references
      made to grades, steps, or the local compensation plan.

N.2.1 That the country director or other designated supervisor conduct annual
      performance appraisals of all PSC staff members and that copies be included in
      their files.

N.3.1 That the administrative officer maintain documentation of competition in PSC
      files for all future contracts.

N.4.1 That the country director ensure that all PSC staff members have completed
      intelligence background information certification forms in accordance with Peace
      Corps policy, and that they be included in their files.




Final Audit Report: Peace Corps/Guinea                                                       35
O.1.1 That the country director obtain approval and authorization for interagency
      agreements for guard and PSC health insurance management services in
      accordance with Peace Corps policies, and that he complete formal written
      interagency agreements as required.

O.2.1 That the administrative officer maintain all necessary documents in the post’s
      contract files, as required by Peace Corps policy.

O.2.2 That the administrative officer obligate funds in FORPost prior to executing and
      signing contracts.

P.2.1 That the administrative officer maintain all required information in current lease
      files, including updated approvals and market surveys for renewed leases.




Final Audit Report: Peace Corps/Guinea                                                 36
APPENDIX A
            OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and comply with Peace Corps
policies and federal regulations. Our audit conclusions are based on information from
three sources: (1) document and data analysis, (2) interviews, and (3) direct observation.
Our audits are conducted in accordance with the government auditing standards
prescribed by the Comptroller General of the United States.

The audit of Peace Corps/Guinea covered fiscal years 2007 and 2008. While at the post,
we interviewed key staff: the country director, the administrative officer, staff responsible
for administrative support, and the medical officer. At the end of our audit, we briefed
the country director and administrative team. At headquarters, we conducted a general
briefing for regional staff.

We relied on computer-processed data from the post’s accounting system. While we did
not test the system’s controls, we believe the information generated by the system and
used by us was sufficiently reliable for our audit objective.

Our audit criteria were derived from the following sources: the Peace Corps Manual, the
Overseas Financial Management Handbook, current Peace Corps initiatives and policies,
and other federal regulations.
APPENDIX B

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
REGIONAL RESPONSE TO THE PRELIMINARY REPORT ON THE AUDIT OF
                   PEACE CORPS/GUINEA

The OIG conducted an audit of PC/Guinea in October of 2008. As outlined in the February 2009
report, Auditor Elizabeth Palmer examined Post’s financial and administrative operations.

PC/Guinea staff and Volunteers would like to acknowledge the work of Ms. Palmer, who
conducted her duties with professionalism, cultural sensitivity, and maintained a friendly and
helpful attitude throughout the audit. She explained the mission of the OIG and kept Post
informed during the process. Her preliminary feedback was appreciated and allowed Post to
continue improvements in areas that were lacking.

In keeping with the Peace Corps service mission, Post was pleased to facilitate travel to several
Volunteers’ sites. The auditor had the opportunity to visit Volunteers and personally observe the
work they are doing in the field. The PC/Guinea administrative staff provided the auditor with a
private room and a workstation, collected all documents requested, and facilitated interviews .

Post underwent an evacuation and six month Program suspension in 2007. The inevitable strain
of a crisis situation (volunteer support, personal safety, job security, and myriad uncertainties)
undermined the effectiveness of Post’s administrative and financial operations. Post is now in a
period of growth and rebuilding and is looking forward to a positive future. As the Program
rebuilds, Post will focus on continuing to improve financial and administrative operations. Post
and Region feel that the OIG audit was helpful in Post’s efforts to continue to improve efficiencies
and comply with regulations.

Executive Summary

The Post and Region fully concurs with 37 of the 41 recommendations provided by the OIG. The
Post and the Region partially concur with recommendation O.1.1 and the explanation for the
partial concurrence is given in the commentary. Post has already implemented actions
responding to all 38 of the recommendations directed to Post, and anticipates closure on open
items under its authority.

The PC/Guinea staff and the Africa Region place a high priority on continually improving financial
and administrative operations and appreciate the insight and information provided by the Peace
Corps Office of the Inspector General.

Recommendations and Responses

A.1.1 That the administrative officer ensure that all obligations, de-obligations, and
similar transactions are fully supported by relevant documentation, including
calculations, written explanations, quotations, and other support.

Response:       Concur

The Administrative Officer agrees to ensure that all transactions are fully supported by relevant
documentation. Post financial management staff use the obligation matrix in the OFMH as a
guide for documenting transactions. Post uses a recurring obligation spreadsheet to document
the establishment and basis of calculation for recurring obligations (utilities, miscellaneous
repairs, miscellaneous supplies, etc.). Recurring obligations are funded on a quarterly basis.
The recurring obligation spreadsheets as well as some sample obligations are included as
supporting documentation (A.1.1 Attachment 1).

Completion Date:         Completed




                                                                                                    1
A.2.1 That the administrative officer record an obligation in the financial reporting
system prior to executing a procurement.

Response:        Concur

The Administrative Officer will continue to ensure that procurements are not executed in advance
of obligation. A system of work order requests which require administrative approval helps to
ensure that procurement is not done in advance of obligation. Recurring obligations for
miscellaneous supplies and repairs help ensure that these procurements are not initiated prior to
obligation. Obligating documents for a sample of procurements have been included as
supporting documentation (A.2.1 Attachment 1).

Completion Date:          Completed

B.1.1 That the administrative officer document the conduct of Volunteer settling-in
allowance surveys and related analyses for each new training group, and ensure that this
information be maintained on file.

Response:        Concur

A settling-in allowance survey is attached to each PCV handbook issued to new volunteers. The
handbook is issued during the PST Admin Session and PCVs are verbally instructed to complete
the survey within the first three months of service. Written reminders are sent to volunteers. For
example, a reminder was sent G16 PCVs in the November 2008 Newsletter. The results of the
G16 PCV settling in allowance survey are included as supporting documentation (B.1.1
Attachment 1) as well as a memo sent to PCVs and the reminder posted in the November
Newsletter for G16 surveys (B.1.1 Attachment 2).

Completion Date:          November 2008 – March 2009

B.2.1 That the administrative officer conduct independent market basket surveys to
verify cost data reported in each settling-in allowance survey in accordance with Peace
Corps policy.

Response:        Concur

Post has conducted an independent market basket survey for verification of cost data reported.
The survey is included as supporting documentation (B.2.1. Attachment 1-4)

Completion Date:          January 2009

B.3.1 That the administrative officer adequately document the justification for the
determined amounts of the travel allowance for all Volunteer sites.

Response:        Concur

Post documents the rates for travel allowance for all Volunteer sites per the official transportation
rates as established by the national public transport syndicate. Post uses a spreadsheet to
determine the amount that each Volunteer should receive for travel allowance. Copies of the
spreadsheet and documentation of the transportation rates approved by the syndicate are
included as documentation (B.3.1. Attachment 1-4).

Completion Date:          January 2009

B.4.1 That the administrative unit deduct host country customs fees paid for Volunteer
personal packages from Volunteer living allowances in accordance with Peace


                                                                                                    2
Corps policy.

Response:       Concur

Post has returned all personal cash to respective PCVs and has been promptly deducting
packages fund from their living allowance. Copies of the deposit slips documented the amounts
deposited to each individual account have already been forwarded to the IG. Volunteers were
informed of the change in policy in the November Newsletter. Copies of the support allowance
spreadsheets for February-May showing the deductions for packages have been included as
supporting documentation (B.4.1 Attachment 1-3).

Completion Date:         October 2008 -January 2009

B.5.1 That the Office of the Chief Financial Officer issue specific guidance to posts
regarding how to account for deductions from living allowances for
reimbursements to Peace Corps that is based on appropriate accounting principles,
including the recording of all such transactions in the financial reporting system.

Response:       Not for Region response.

C.1.1 That the billing officer inform the administrative officer of bills over 30 days
outstanding and that the administrative officer consistently follow up with debtors
to ensure that debts are promptly paid.

Response:       Concur

For current BOCs issued in this fiscal year, all payments are so far collected in a timely manner in
compliance with the OFMH. The AO redoubled Post efforts to enforce prompt payment of phone
bills. The Billing Officer has been instructed to refer all open collections after 30 days to AO for
her personal follow up. As a result, since inspector’s visit, billing officer has been checking the
outstanding bills and informing the AO who sends out letters to identified debtors with a deadline
for payment. Samples of a memo for BOC collection as well as a copy of the outstanding BOC
report have been included as supporting documentation (C.1.1 Attachment 1).

Completion Date:         February 2009

C.2.1 That the country director ensure that termination cables are sent to
PC/Washington within one business day following the termination in accordance
with Peace Corps policy.

Response:       Concur

Volunteers’ termination cables are sent within one business day after the Volunteer leaves.
Exception was made during the period of evacuation in Mali Bamako where the Administrative
Assistant was the only admin person to close out 117 PCVs’ services at the Tubaniso training
site. There were not enough computers for each staff and the internet connection was so poor
that some cables couldn’t be sent within one business day. Samples of cables sent within one
business day from 2005, 2006, 2007, 2008, and 2009 have been included as supporting
documentation (C.2.1. Attachment 1- 2). Also, please reference the clarification of this policy
requested by the Region in response to PC Senegal IG Audit Report IG-07-18-A in which PC
Senegal clarified with the current Director of Volunteer and PSC Services, that the Overseas
Financial Management Handbook is currently incorrect and that cables should be submitted
within 24-business hours (C.2.1 Attachment 3).

Completion Date:         Completed




                                                                                                  3
D.1.1 That the administrative officer document, in a memorandum to the host country
contribution file, the basis for valuation of in-kind host country contributions as
presented in the FY 2009 Operations Plan.

Response:       Concur

The host country contribution for the FY09 OP plan is documented. The memorandum to the file
is included as supporting documentation (D.1.1. Attachment 1).

Completion Date:         July 29, 2008

E.1.1 That the cashier, in accordance with Peace Corps policy, change the imprest fund
safe combination annually, when there is a change in cashiers, or whenever the
combination becomes known to a person other than the cashier.

Response:       Concur

The safe combination was changed in September 2008 and changed again in March 2009.
There is a log inside the cashier safe indicating the dates that the combination was changed. A
copy of the log is included as supporting documentation (E.1.1 Attachment 1).

Completion Date:         March 20, 2009

E.2.1 That the country director ensure that the cashier receive adequate training to reset
the imprest fund safe combination.

Response:       Concur

The Cashier is trained to reset the combination. With the existing safe, a technician is required to
set-up the safe prior to the combination change. The Cashier makes the combination change
without assistance. This is in accordance with MS 790 that “The Embassy Regional Security
Officer (RSO) or technician assisting with the changing of the combination is not authorized to set
or know the combination of the safe.” The cashier changed the combination in September 2008
and changed it again in March 2009. The Africa Region has funded procurement of a new safe
which will not require any assistance to set up the safe prior to the combination change. A copy
of the FORPOST budget report confirming receipt of funds from the Africa Region for
procurement of a new safe as well as a copy of the Cashier’s statement documenting the
September 2008 and March 2009 combination changes have been included as supporting
documentation (E.2.1 Attachment 1 - 2).

Completion Date:         March 2009

E.3.1 That the cashier or other designate perform unannounced sub-cashier
verifications in accordance with Peace Corps policy.

Response:       Concur

The sub-cashier advances have been reduced to 1000 USDE. Copies of the quarterly un-
unannounced sub-cashier verifications and interim receipts indicating the amount of funds held by
each sub-cashier are included as supporting documentation (E.3.1 Attachment 1 and E.3.1
Attachment 2).

Completion Date:         February-March 2009

E.4.1 That the Chief Financial Officer work with the U.S. Treasury Department to find
a solution to Peace Corps' need to make cash payments away from the Peace


                                                                                                   4
Corps overseas offices, given that most staff are contractors.

Response:       Not for Region Response

E.4.2 That the Office of Acquisitions and Contract Management remove all references
from PSC contract guidance regarding PSCs carrying cash or allowances so that
the conflicting guidance is eliminated.

Response:       Not for Region Response

F.1.1 That the administrative officer separate the duties of maintaining the inventory
records and conducting the annual physical inventory count and verification.

Response:       Concur

These duties are separated per the job descriptions of the General Services Manager and the
General Services Assistant. A copy of the job descriptions is attached for documentation (F.1.1
Attachment 1 - 2).

Completion Date:         March 2009

F.2.1 That the country director ensure that the post follow Peace Corps policy regarding
implementation of controls over the issuance of Peace Corps property to Volunteers and
staff.

Response:       Concur

All staff and volunteers who receive Peace Corps property must sign an issuance receipt.
Samples of signed issuance receipts have been included as supporting documentation (F.2.1
Attachment 1).

Completion Date:         March 2009

F.3.1 That the administrative officer ensure that the inventory listing is maintained
throughout the year, and that a complete inventory count be performed annually
in accordance with Peace Corps policy.

Response:       Concur

The General Services Manager maintains the inventory listing throughout the year and performs
the bi annual PP&E verifications as required by the CFO. On an annual basis, a complete
inventory count is performed. A copy of the most recent complete inventory count is included as
documentation (F.3.1 Attachment 1).

Completion Date:         Completed

G.1.1 That in accordance with Peace Corps policy, the country director designate staff
from outside the medical unit to conduct the monthly inventory counts of medical
supplies.

Response:       Concur

The Country Director has designated the Receptionist/Administrative Supply Clerk as the person
outside the medical unit who will conduct monthly inventories of medical supplies (G.1.1
Attachment 1).




                                                                                                  5
Completion Date:         March 2009

G.2.1 That the country director ensure that the medical supply inventory records are
updated and complete, including making new entries to reflect similar inventory
items with different descriptive identifiers.

Response:       Concur

The medical inventory is now being conducted at the end of each month. The medical inventory
data forms were modified to include multiple descriptions for the same medication. Information is
entered to reflect any similar inventory items that have new or different descriptive identifiers.
(G.2.1 Attachment 1).

Completion Date:         September 2008

G.2.2 That the PCMO timely dispose of damaged and expired items that are no longer
useful in accordance with Peace Corps policy.

Response:       Concur

The PC medical unit incinerates damaged and expired items every three months. A log of
expired medicines is kept to assure proper documentation of any medications or supplies that are
incarnated. A copy of the log is included as supporting documentation (G.2.2 Attachment 1).

Completion Date:         November 2008

H.1.1 That the administrative officer review vehicle logs on a weekly basis and that the
country director review vehicle logs on a monthly basis in accordance with Peace
Corps policy.

Response:       Concur

The motorpool coordinator collects the vehicle logs on a weekly basis and submits them to the
administrative officer for signature. The vehicle logs are approved by the Country Director on a
monthly basis. Copies of the approved vehicle logs have been included as supporting
documentation (H.1.1 Attachment 1-4).

Completion Date:         Completed

I.1.1   That the cardholder acquire signature authorization from the approving official
before purchases are made on the purchase card in accordance with Peace Corps
policy.

Response:       Concur

The cardholder obtains signature authorization from the approving official before the purchases
are made. The card holder documents the approval by having the approving official sign on the
obligation coversheet. Obligations are always made prior to the procurement. Copies of the
purchase card log and obligating documents for December 2008, January 2009, and February
2009 have been included as supporting documentation (I.1.1 Attachment 1).

Completion Date:         December 2008

J.1.1 That the country director and regional director review PC-57 in accordance with
agency’s policy.




                                                                                                   6
Response:        Concur

All local and USDH staff’s PC-57 have been printed and signed by CD. Also, Post will be printing
and signing PC-57 for USDH twice a year (June 2009 and December 2009). Copies of the
signed PC-57 have been included as supporting documentation (J.1.1 Attachment 1).

Completion Date:          December 2008

J.2.1 That the Administrative Officer obtains the actual starting leave balances for
USDHs transferred from other PC posts timely.

Response:        Concur

One USDH transferred from another Post during the fiscal years 2007 and 2008. A copy of the
PC-57 for this USDH is included as supporting documentation (J.2.1 Attachment 1).

Completion Date:          December 2008

J.2.2 That the AO ensures that correct annual Leave accrual rates are applied for
purpose of recording USDH accrued Leave.

Response:        Concur

USDH leave has been accrued correctly for all USDH currently at Post. Post will use a checklist
for newly arrived USDH to ensure that correct information is provided by the USDH or by the HQ
timekeeper. A copy of the checklist is provided as supporting documentation as well as
documentation regarding the accrual of leave for the USDH currently at Post (J.2.2 Attachment
1).

Completion Date:          Completed

J.2.3 That the AO ensure that sick leave balances are tracked for all personnel assigned
to the post, including PSCs.

Response:        Concur

Sick leave balances are tracked for all USDH staff. The 2009 PC-57 have been included as
supporting documentation. Local staff do not accrue sick leave, as per the Local Guinean Leave
Plan. There is no limit to the number of work days of sick leave at full pay that will be granted to a
local employee per leave year. This is why PC/Guinea does not record sick leave in PC-57 for
local staff. A copy of the leave plan text regarding sick leave is included as supporting
documentation (J.2.3 Attachment 1).

Completion Date:          Completed

K.1.1 That the administrative officer coordinate phone bills with the staff to identify
personal calls made and obtain timely responses in accordance with Peace Corps
policy.

Response:        Concur

Post has negotiated a contract with a local telephone company to create a Virtual Private Network
(VPN) for Peace Corps. Under this contract, effective April 1st, 2009, all calls within the network
to Peace Corps staff and Volunteers will be free. Staff will be issued pre-paid telephone numbers
rather than billed telephone numbers. The new plan will significantly reduce the need to bill for
personal calls. Until the plan is effective, the Administrative Assistant gives out copies of the


                                                                                                    7
phone bills for staff to identify their personal calls. Copies of the log for staff phone bills are
attached as supporting documentation (K.1.1 Attachment 1- 4).

Completion Date:          March 2009

K.1.2   That the billing officer issue bills for personal calls timely.

Response:        Concur

Post is working on this issue but has limitations because the state telephone service in Guinea
sends invoices out one to two months late and therefore delays the issuance of BOC. Sample
invoices with the date of receipt stamped document the delay in receipt of the invoice. An
example of a BOC issued within three business days of receipt documents timely issuance of bills
(K.1.2. Attachment 1-2).

Completion Date:          Completed

K.1.3 That the country director set a minimum billing amount for the personal use of
phones that is cost effective for billing purposes.

Response:        Concur

The Country Director has set the minimum billing amount at 25,000 GNF, approximately 5 USDE
(K.1.3 Attachment 1)

Completion Date:          January 2009

L.1.1 That the post obtain waivers for the use of all non-standard ICASS services
subscribed to in accordance with Peace Corps policy.

Response:        Concur

Post has obtained a waiver for all non-standard ICASS services. A copy of the waiver signed by
the CFO is included as supporting documentation (L.1.1 Attachment 1).

Completion Date:          February 2009

M.1.1 That the country director promptly return no-fee passports to Volunteers and
Trainees in accordance with Peace Corps policy.

Response:        Concur

Post has requested that Volunteers who wish that Peace Corps keep their no-fee passports sign
a statement that they have read the policy and understood the policy. Copies of signed
statements regarding no fee passports, as well as written approval of the Country Director to
safeguard Volunteer Trainee property including passports has been included as supporting
documentation (M.1.1 Attachment 1).

Completion Date:          Completed

M.1.2 That the country director revise the PC/Guinea Volunteer Manual regarding
safekeeping of Volunteer passports so that it is consistent with Peace Corps and
Department of State guidance.

Response:        Concur




                                                                                                      8
Post has revised the PC/Guinea Volunteer Manual to advise Volunteers of the Peace Corps and
Department of State Guidance. A copy of the relevant manual section is included as supporting
documentation (M.1.2 Attachment 1).

Completion Date:          January 2009

N.1.1 That for future Personal Services contracts and options, the Administrative Officer
reviews contract language prior to signing to ensure that there are no references made to
grades, steps, or the local compensation plan.

Response:        Concur

Post makes no reference to grades, steps, or the local compensation plan in Personal Services
contracts. Sample contracts from 2007, 2008 and 2009 have been included as supporting
documentation (N.1.1 Attachment 1).

Completion Date:          January 2009

N.2.1 That the country director or other designated supervisor conduct annual
performance appraisals of all PSC staff members and that copies be included in
their files.

Response:        Concur

Post has documented a procedure for annual performance appraisals and FY08 performance
appraisals were conducted for all PSC staff. A copy of the procedure as well as performance
appraisals for a range of staff have been included as supporting documentation (N.2.1
Attachment 1 and N.2.1 Attachments 2-13).

Completion Date:          February - March 2009

N.3.1 That the administrative officer maintain documentation of competition in PSC
files for all future contracts.

Response:        Concur

Post will maintain documentation of competition in PSC files. The selection memo, candidate
rankings, and newspaper advertisement for five different positions recruited in calendar year 2008
have been included as supporting documentation (N.3.1. Attachment 1-4).

Completion Date:          April 2008 – February 2009

N.4.1 That the country director ensure that all PSC staff members have completed
intelligence background information certification forms in accordance with Peace
Corps policy, and that they be included in their files.

Response:        Concur

All files include intelligence certification forms at Post. A sample of 10 completed certification
forms are included as supporting documentation (N.4.1 Attachment 1 - 2).

Completion Date:          October 2008

O.1.1 That the country director obtain approval and authorization for interagency
agreements for guard and PSC health insurance management services in
accordance with Peace Corps policies, and that he complete formal written


                                                                                                     9
interagency agreements as required.

Response:       Partially Concur

Post has obtained authorization form the Dept. of State to provide its own security service. Post
is in the process of implementing the change. A copy of the authorization from the Ambassador
and RSO is attached as supporting documentation. Peace Corps has its own contract with the
Health insurance company copies of the contract and renewals from 2004 to date have been
included as supporting documentation (O.1.1 Attachment 1- 3).

Completion Date:         November 2008, Ongoing until finalization of contract

O.2.1 That the Administrative Officer maintains all necessary documents in the Post’s
contract files, as required by Peace Corps policy.

Response:       Concur

The Administrative Officer has issued a memo stating that Post will adhere to the guidelines for
contract file documentation as issued by the Office of Contracts. In order to ensure that the
guidelines are followed, Post will use checklists for contract file documentation (Purchase Orders,
PSC Contracts, and Leases) and a completed checklist and the contract file will be presented to
the Contracting Officer prior to signature (O.2.1. Attachment 1).

Completion Date:         March 2009

O.2.2 That the Administrative Officer obligates funds in FORPOST prior to executing and
signing contracts.

Response:       Concur

The Administrative Officer obligates funds in FORPOST prior to executing and signing contracts.
Several examples have been included as supporting documentation (O.2.2 Attachment 1 - 2).

Completion Date:         March 2009

P.2.1 That the administrative officer maintain all required information in current lease
files, including updated approvals and market surveys for renewed leases.

Response:       Concur

Post is in the process of up-dating all lease files as required by PC policy. A copy of a completed
lease checklist is included as supporting documentation (P.2.1 Attachment 1).

Completion Date:         Ongoing, anticipated completion October 2009




                                                                                                10
OFFICE OF ACQUISTIONS AND CONTRACT MANANGEMENT REPONSE TO
RECOMMENDATION E.4.2



CONCUR. Barring OCFO obtaining a waiver from the Department of Treasury or coming up with
another solution acceptable to OIG, OACM will issue an Acquisition Bulletin to Country Directors
and Administrative Officers of the change in guidance as well as remove any guidance from the
Peace Corps intranet site by April 30, 2009.


Carey M. Fountain
Chief Acquisition Officer
Peace Corps
1111 20th Street, NW
Washington, DC 20526
Memorandum

To:    Kathy Buller, Inspector General

From: Thomas Bellamy, Acting Chief Financial Officer

Date: March 27, 2009

Subject: OCFO Response to PC/Guinea IG Audit

The OCFO has the following 2 recommendations to make in regard to IG
recommendations resulting from the recent IG Audit of Peace Corps/Guinea.

IG Recommendations:

B.5.1 That the Office of the Chief Financial Officer issue specific guidance to
posts regarding how to account for deductions from living allowances for
reimbursements to Peace Corps that is based on appropriate accounting
principles, including the recording of all such transactions in the financial
reporting system.

CFO Response: Concur

The following guidance has been included in the Overseas Financial
Management Handbook since summer of 2007.

Consistent with MS 221, deductions may be made for overpayment of
allowances or other debts owed to the Peace Corps using the following
procedures:

Reduce the final LA payment by the amount owed, using the MPL to
indicate that the full amount was authorized (in the LA column) and then
reduced (using the adjustment column), explaining the basis for the
reduction in a note attached to the spreadsheet.

Note – it is not possible to debit the LA obligation and then credit other
obligations without funds actually changing hands (in cash). Therefore, the
Agency has determined that it is most cost-effective for the US Govt. simply to
reduce LA.

E.4.1 That the Chief Financial Officer work with the U.S. Treasury Department to
find a solution to Peace Corps' need to make cash payments away from the
Peace Corps overseas offices, given that most staff are contractors.



                                 Page 1 of 2
CFO Response: Concur

Before addressing this with Treasury, we recommend that the Office of the
Chief Financial Officer work with the Office of General Counsel, OACM, and
the Regions to find a solution to Peace Corps' need to make cash
payments away from the Peace Corps overseas offices, given that most
staff are personal services contractors. We are circulating a draft solution
that will provide a reasonable cure for the ongoing challenge of PC need
for occasional money handling in the field. This should make PC practices
in the field more congruent with PC Manual policy. We anticipate a
solution before the end of Quarter 3, 2009.

Cc: CG, OACM




                             Page 2 of 2
APPENDIX C

                               OIG COMMENTS

Management concurred with 40 recommendations and partially concurred with one
recommendation made in our report. We closed 37 recommendations. Recommendations
E.4.1, E.4.2, G.2.2, and J.2.1 remain open pending confirmation from the chief
compliance officer that the following has been received:

           •   For recommendation E.4.1, a copy of the Office of the Chief Financial
               Officer’s memorandum that details the solution for cash payments by
               overseas staff.

           •   For recommendation E.4.2, a copy of the Acquisition Bulletin, or other
               solution, which eliminates conflicting Peace Corps guidance.

           •   For recommendation G.2.2, documentation that the items the auditor found
               to be expired were disposed in accordance with Peace Corps policy.

           •   For recommendation J.2.1, documentation that sick leave ending balances,
               for USDH staff transferring from another Peace Corps post, are reconciled
               with sick leave beginning balances at PC/Guinea.

In their response, the management describes actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that they have taken these actions nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.
APPENDIX D

        AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION   The audit was performed by auditor Elizabeth Palmer.


OIG CONTACT        If you wish to comment on the quality or usefulness of this
                   report to help us strengthen our product, please e-mail
                   Gerald P. Montoya, Assistant Inspector General for Audit,
                   at gmontoya@peacecorps.gov, or call him at
                   (202) 692-2907.
          REPORT FRAUD, WASTE, ABUSE,
             AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, and abuse related to Peace Corps
operations domestically or abroad. You can report allegations to
us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  (800) 233-5874
               Washington Metro Area:              (202) 692-2915


Fax:           (202) 692-2901

E-Mail:        oig@peacecorps.gov
